OIG Investigative Reports, Beauty School Owner Pleads Guilty to Embezzlement of $600,000 from the U.S. Department of Education
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
U.S. Department of Justice
United States Attorney for the
Southern District of Florida
99 N.E. 4 Street
Miami, FL 33132
(305) 961-9001
PRESS RELEASE:
Florida April 29, 2003
For Information Contact Public Affairs:
Matthew Dates,  Special Counsel for Public Affairs,  (305) 961-9285
Marjorie M. Selige,  Public Affairs Specialist,
(305) 961-9048
Beauty School Owner Pleads Guilty to Embezzlement of $600,000 from the U.S. Department of Education
Marcos Daniel Jiménez, United States Attorney for the Southern District of Florida; Gary E. Mathison and Lester Fernandez, Special Agents in Charge, United States Department of Education, Office of Inspector General; and Manuel Gonzalez, Inspector in Charge, United States Postal Inspector Service, San Juan, Puerto Rico, announced today that Carlos Alvarez pled guilty before United States District Judge James Lawrence King to embezzlement of $600,000 of Pell Grant funds from the United States Department of Education, in violation of 20 U.S.C. §1097(a).
Sentencing is scheduled for July 9, 2003, at 1:30 p.m., before Judge King.
On April 18, 2000, Alvarez executed a Settlement Agreement in which he agreed to be barred for a period of seven years from having an ownership interest in any school that received United States Department of Education program funds, including Pell Grant funds. Nevertheless, within three months of executing the Settlement Agreement, Alvarez purchased Caribbean Beauty and Technical Institute (Caribtech), a for-profit school incorporated under the laws of the Commonwealth of Puerto Rico for the purpose of providing post-secondary education and training in the technical and vocational fields of cosmetology and styling. Alvarez hid his ownership of Caribtech through a straw purchaser, who falsely represented to the United States Department of Education to be the owner of Caribtech. Alvarez used the $600,000 of Pell Grant funds embezzled from the United States Department of Education for purposes unrelated to the operations of the school.
Mr. Jiménez commended the investigative efforts of the United States Department of Education, Office of Inspector General, and the United States Postal Inspection Service. The case was prosecuted by Assistant United States Attorney Robert J. Lehner.
Top
Printable view
Share this page
Last Modified: 03/01/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov